            valuation


             eport

    USE OF FEDERAL ACQUISITION REGULATION PART 12
           CONTRACTS FOR APPLIED RESEARCH



Report No. D-2001-051                        February 15, 2001


         This special version of the report has been revised
                 to omit contractor proprietary data.


             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this evaluation report, visit the Inspector General,
  DoD, Home Page at: www.dodig.osd.mil/audit/reports or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CAS                   Cost Accounting Standards
DARPA                 Defense Advanced Research Projects Agency
FAR                   Federal Acquisition Regulation
LMI                   Logistics Management Institute
PNM                   Price Negotiation Memorandum
RIT                   Rapid Improvement Team
                       Office of the Inspector General, DoD
Report No. D-2001-051                                              February 15, 2001
   (Project No. D2000AE-0272.000)

         Use of Federal Acquisition Regulation Part 12 Contracts
                          for Applied Research

                                    Executive Summary

Introduction. This report analyzes Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics attempts from 1997 to 2000 to justify the use of
Federal Acquisition Regulation (FAR) Part 12, “Acquisition of Commercial Items,”
contracts for acquiring applied research. Applied research involves the scientific
efforts to translate basic research into solutions for broadly defined military needs. The
report also analyzes a Logistics Management Institute study, “Using FAR Part 12 to
Buy Commercial Services in Applied Research,” August 1999. Further, the report
discusses a Rapid Improvement Team that the Deputy Under Secretary of Defense
(Acquisition Reform) chartered on March 20, 2000, to improve the involvement of
commercial firms in the Government research and development process by piloting
commercial-like (fixed-price) research and development relationships with a contractor
and its technology venture companies.

Objective. The primary objective was to evaluate use of FAR Part 12, “Acquisition of
Commercial Items,” contracts to acquire applied research.

Results. The Office of the Under Secretary of Defense for Acquisition, Technology,
and Logistics and the Defense Advanced Research Projects Agency have made different
attempts over the last 3 years to inappropriately use FAR Part 12 contracts to acquire
applied research. The lack of a commercial market and established catalog and market
prices for applied research, and difficulties in determining fair and reasonable prices for
services that do not exist in the marketplace makes the use of commercial item contracts
for applied research inappropriate. The Director, Defense Procurement, and the
Defense Contract Audit Agency have advised the Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics and the Defense Advanced
Research Projects Agency that the use of commercial item contracts for applied
research is inappropriate. The Office of the General Counsel also provided the same
advice to the Office of the Under Secretary of Defense for Acquisition, Technology,
and Logistics. DoD has multiple acceptable strategies to engage in applied research
with traditional DoD contractors and new contractors that have never performed DoD
work. DoD can use FAR contracts and, when appropriate, can waive Cost Accounting
Standards and Truth In Negotiations Act requirements. DoD can also use grants,
cooperative agreements, and other transactions that are not subject to the FAR and most
procurement statutes. Despite these alternatives, the Directorate of Contracting at Fort
Huachuca, Arizona, inappropriately awarded the contractor, in August 2000, a FAR
Part 12 “firm-fixed-price (variable outcome) contract” for applied research in support
of the Defense Advance Research Projects Agency. The contract did not satisfy the
statutory definition of a commercial item and the contract type is not defined in the
FAR. See the Evaluation Results section for a discussion of our overall evaluation.
Summary of Recommendations. We recommend that the Under Secretary of Defense
for Acquisition, Technology, and Logistics provide guidance to the Rapid Improvement
Team and to contracting officers to not use a FAR Part 12 contract to acquire applied
research. Guidance should also state that market research, especially verification of
prices from sources independent of the offeror, is a key factor in determining whether
established market prices exist for research or other commercial services. We also
recommend that, if the Under Secretary of Defense for Acquisition, Technology, and
Logistics decides to encourage the use of any new type of contract for research and
development, it should be defined in the FAR, along with criteria for and limitations on
its use.

Management Comments. The Director, Defense Procurement, concurred with the
recommendations and stated that the Under Secretary would provide guidance on the
appropriate contract type for applied research and on the use of market research. The
Director stated that the use of the term “firm-fixed-price (variable outcome) contract” is
a misnomer and should not be included in the report recommendations. Further, the
Director stated that DoD should explore the utility of a new type of contract for
research and development under which DoD establishes a fixed amount of funding for
the contractor to provide its best efforts toward achieving a desired outcome. If the
new contract type has utility, DoD should establish it in the FAR. A discussion of the
management comments is in the Evaluation Results section of the report, and the
complete text is in the Management Comments section.

Office of the General Counsel Comments. On January 11, 2001, the Deputy General
Counsel (Acquisition and Logistics) issued a memorandum to the Director, Defense
Procurement, Office of the Under Secretary of Defense for Acquisition, Technology,
and Logistics, advising that applied research is not a commercial service and not
suitable for acquisition under FAR Part 12 procedures.

Evaluation Response. The comments from the Director, Defense Procurement, were
partially responsive to the recommendations. The Director did not provide an estimated
date as to when the Under Secretary of Defense for Acquisition, Technology, and
Logistics plans to issue guidance advising that the use of FAR Part 12 contracts for
applied research is inappropriate and clarifying the use of market research to determine
whether services qualify as commercial items. In response to the Director’s comments,
we revised the report to remove the term “firm-fixed-price (variable outcome) contract”
from the report recommendation. Further, as of the date of this report, the Under
Secretary’s website, which is available to the public, still includes documents that
promote the use of FAR Part 12 contracts for applied research and the use of
“fixed-price (variable outcome) contracts.” We request that the Under Secretary
provide additional comments identifying when guidance will be issued on the
appropriate types of contracts that DoD contracting officers can use for applied
research and the need for conducting market research to determine whether services
qualify as commercial items. We also request comments on when the Office of the
Under Secretary will remove documents that promote the inappropriate use of FAR
Part 12 contracts for applied research and the use of “fixed-price (variable outcome)
contracts” from its website. We request that the Under Secretary provide additional
comments by April 16, 2001.




                                            ii
Table of Contents

Executive Summary                                                             i

Evaluation Results
     Background                                                               1
     Objective                                                                3
     Use of FAR Part 12 Contracts for Acquiring Applied Research              4

Appendixes
     A. Evaluation Process
           Scope and Methodology                                             24
           Prior Coverage                                                    25
     B. Under Secretary of Defense for Acquisition and Technology,
           Memorandum of December 8, 1997                                    26
     C. Director, Defense Procurement, Memorandum of July 20, 1998           28
     D. Director, Defense Procurement, Memorandum of October 26, 1999        30
     E. Report Distribution                                                  32

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   35
Background
    Research and Development. Federal Acquisition Regulation (FAR) Part 35,
    “Research and Development Contracting,” states that the primary purpose of
    contracted research and development programs is to advance scientific and
    technical knowledge (basic research) and apply that knowledge to the extent
    necessary to achieve agency and national goals (applied research). Basic
    research is directed towards increasing knowledge rather than a practical
    application of that knowledge. Applied research consists of research efforts to
    translate basic research into solutions for broadly defined military needs, short
    of major development efforts. The dominant characteristic of DoD applied
    research is that it be pointed toward specific military needs with a view toward
    developing and evaluating the feasibility and practicality of proposed solutions
    and determining parameters. Unlike contracts for supplies and services, FAR
    Part 35 states that most research and development contracts are directed toward
    objectives for which the work or methods cannot be precisely described in
    advance. It further provides that the use of cost-reimbursement contracts is
    usually appropriate because the absence of precise specifications and difficulties
    in estimating costs with accuracy (resulting in a lack of confidence in cost
    estimates) normally precludes using fixed-price contracts for research and
    development.

    Report of the Price-Based Acquisition Study Group. The “Report of the
    Price-Based Acquisition Study Group,” November 15, 1999, that the Under
    Secretary of Defense for Acquisition, Technology, and Logistics approved,
    states that high-technology commercial companies purchase research and
    development, but not in the same way DoD does. The companies typically
    acquire research and development in one of three ways.

           •   First, they buy it from themselves by making fixed-price investments
               into various ventures within the company. In general, these
               investments have formal, contract-like terms and conditions, are
               often interdivisional within the same company, involve unique items,
               and are fixed-price arrangements. The company makes investments
               in increments; that is, the company funds the investment one step at a
               time, reexamining the projects periodically to see whether they
               warrant added investment dollars or should be canceled.

           •   Second, companies acquire research and development as part of the
               purchase price of the product in the same way that a consumer
               acquires research and development by buying a new version of
               software to run a computer.

           •   Third, large companies acquire research and development by
               purchasing other companies. They acquire another company’s
               products, ongoing research and development, and technical
               know-how.




                                         1
The report found that, unlike commercial companies, DoD is only a buyer and
not a supplier or a subcontractor for many military products. Also, the Report
of the Price-Based Acquisition Study Group did not state that there was a
competitive commercial market for research and development.

Further, the report recommended, as a price-based acquisition tool, the use of
“fixed-price (variable outcome) contracts” as the preferred approach for science
and technology efforts. However, a number of the DoD Components disagreed
with the approach and considered it either as a return to the 1980’s approach of
using fixed-price contracts for research and development or a difficult concept
to implement.

Methods to Acquire Research and Development. Chapter 139 of title 10,
United States Code, “Research and Development,” provides DoD the statutory
authority to engage in research through a variety of instruments. Section 2358
of title 10 authorizes the use of contracts, cooperative agreements, and grants to
engage in research projects. Section 2371 of title 10 authorizes the use of other
transactions to carry out research projects.

        Contracts. Contracts negotiated under FAR Part 15 may be of any type
or combination of types that promote the Government’s interest. The objective
of the contracting officer is to negotiate a contract type and price that results in
reasonable contractor risk and provides the contractor with the greatest incentive
for efficient and economical performance. Contracting officers shall also
determine that the offered price is fair and reasonable. Unless the price is based
on competition or another FAR exception, contracting officers are required to
obtain cost or pricing data from the contractor to make a determination as to
whether the proposed price is fair and reasonable. Contracting officers are not
required to obtain cost or pricing data for acquisitions at or below the Truth In
Negotiations Act threshold of $550,000. The head of the contracting activity
can waive the requirement to obtain cost or pricing data in exceptional
circumstances, such as if the price can be determined to be fair and reasonable
without submission of cost or pricing data. The FAR exempts negotiated
contracts from Cost Accounting Standards (CAS) under certain circumstances,
to include contracts that do not exceed $500,000 or the contract types are firm-
fixed-price or firm-fixed-price with economic price adjustment. The FY 2000
Authorization Act exempted contracts of less than $7.5 million if at the time of
award the contractor to perform the work has not previously been awarded a
CAS contract exceeding $7.5 million. The Act also allows the DoD to waive
CAS in certain circumstances.

        Grants and Cooperative Agreements. The Secretary of Defense and
the Military Departments can engage in basic research and applied research
projects through grants and cooperative agreements. Implementing guidance is
contained in DoD Regulation 3210.6-R, “DoD Grant and Agreement
Regulations,” April 13, 1998. A grant is a legal instrument used to enter into a
relationship to transfer a thing of value to the recipient to carry out a public
purpose of support or stimulation rather than to acquire property or services for
direct benefit or use of DoD. In carrying out the grant purpose, substantial
involvement is not expected between DoD and the recipient. A cooperative


                                     2
    agreement is a legal instrument similar to a grant except that substantial
    involvement is expected between DoD and the recipient when carrying out the
    cooperative agreement purpose.

            Other Transactions. Other transactions are instruments other than
    contracts, grants, and cooperative agreements used to stimulate, support, or
    carry out research or prototype projects. Congress authorized DoD to enter into
    other transactions in 1989 as a way to encourage commercial firms to advance
    dual-use technology, to broaden the technology and industrial base available to
    DoD, and to foster new relationships and practices within the technology and
    industrial base that supports national security. Other transactions are generally
    not required to comply with statutes and regulations that are applicable to
    contracts, grants, and cooperative agreements. The application of procurement
    regulations and statutes, such as the Cost Accounting Standards, the Truth In
    Negotiation Act, technical data rights, and patent provisions, is discretionary.
    Other transactions may have fixed-price or cost-type characteristics and may
    require cost sharing from the contractor. DoD has two types of other
    transactions: research and prototype. Research other transactions are for basic
    and applied research and guidance is in DoD Regulation 3210.6-R. Prototype
    other transactions are for development of prototypes for weapon and other
    systems and guidance is in a directive-type memorandum that the Under
    Secretary of Defense for Acquisition, Technology, and Logistics issued on
    December 21, 2000.

Objective
    The primary objective was to evaluate use of FAR Part 12, “Acquisition of
    Commercial Items,” contracts to acquire applied research. See Appendix A for
    a discussion of the evaluation scope and methodology and prior coverage related
    to the objective.




                                        3
           Use of FAR Part 12 Contracts for
           Acquiring Applied Research
           Elements within the Office of the Under Secretary of Defense for
           Acquisition, Technology, and Logistics and the Defense Advanced
           Research Projects Agency (DARPA) have made different attempts over
           the last 3 years to inappropriately justify or use FAR Part 12,
           “Acquisition of Commercial Items,” contracts to acquire applied
           research. This condition occurred in spite of advice from the Director,
           Defense Procurement; the Office of General Counsel; and the Defense
           Contract Audit Agency and because of misplaced reliance on a flawed
           study by a consultant. Further, available methods of acquiring research,
           such as traditional cost and fixed-price contracts, and research other
           transactions, were considered less desirable alternatives. Recently, a
           contracting officer at Fort Huachuca, Arizona, inappropriately awarded a
           contractor, whose company primarily conducts research and
           development, a FAR Part 12 “fixed-price (variable outcome) contract”
           for applied research despite the objections of personnel from the Defense
           Contract Audit Agency and the Inspector General, DoD. Applied
           research for DoD is devoted in part to developing or meeting a military
           unique capability or capability that does not exist and does not satisfy the
           commercial item criteria in the FAR.

Requirements for Using FAR Part 12
    FAR Part 12, “Acquisition of Commercial Items,” prescribes policies and
    procedures for the acquisition of commercial items. It implements the Federal
    Acquisition Streamlining Act of 1994’s (the Act) preference for the acquisition
    of commercial items by establishing acquisition policies more closely resembling
    those of the commercial marketplace. The Act authorized contracting officers to
    use streamlined contracting procedures as a result of reduced risks to the
    Government based on influences of the commercial marketplace on contractor
    pricing and performance. The premise is that commercial items and services
    are readily available and competition will ensure fair prices and quality. To
    eliminate Government unique requirements and perceived impediments of
    commercial contractors, FAR Part 12 eliminates many otherwise standard
    solicitation provisions, contract provisions, and contract clauses (such as audit
    access, Cost Accounting Standards, and Truth In Negotiations Act).

    DoD contracting officers are authorized to use FAR Part 12 for the acquisition
    of supplies and services that meet the definition of commercial items in Part 2,
    “Definitions of Words and Terms,” of the FAR. Based on section 403(12)(F)
    of title 41, United States Code, “Definitions,” FAR Part 2 defines services as a
    commercial item if the services are of a type offered and sold competitively in
    substantial quantities in the commercial marketplace and are based on
    established catalog or market prices for specific tasks performed under standard
    commercial terms and conditions. The definition excludes services sold based
    on hourly rates without an established catalog or market price for specific
    services performed. The FAR does not define market price. However, the

                                        4
    Conference Report 104-450 for the National Defense Authorization Act for
    FY 1996, which added the term “market price” to the definition of “commercial
    item,” states that “market prices are current prices that are established in the
    course of ordinary trade between buyers and seller free to bargain and that can
    be substantiated from sources independent of the offeror [emphasis added].”

    Two significant cases help clarify the definition of commercial services. These
    were Aalco Forwarding, Inc. et seq. (hereafter Aalco), B-277241.9, October 21,
    1997, 97-2 CPD 110; and Environcare of Utah, Inc. v. United States (hereafter
    Environcare), 44 Fed. Cl. 474, Court of Federal Claims, June 11, 1999. Both
    cases conclude that market research by the contracting officer provides the basis
    for determining whether a commercial service with a competitive market and an
    established catalog or market price exists. In Aalco, the Government presented
    extensive documentation to demonstrate that the services were sold
    competitively. The Military Traffic Management Command officials provided
    statements based on their extensive experience in transportation services and
    extensive market surveys regarding commercial services and terms and
    conditions in the transportation industry. Examples of corporate contracts for
    such services were obtained. The published tariffs and exceptions to tariffs for
    the industry evidenced that transportation services were sold competitively and
    that there were established prices and terms and conditions for these commercial
    services. In Environcare, the Corps of Engineers issued a solicitation for the
    removal of five different types of waste, including low-activity radioactive
    waste, naturally occurring radioactive materials, and hazardous mixed waste.
    The protester contended that the Corps of Engineers should have issued the
    solicitation pursuant to FAR Part 12 procedures, as the radioactive waste
    disposal services constituted a commercial item. The Court held that the
    disposal services were not a commercial item as market prices could not be
    substantiated from sources independent of the offeror, and there was no
    competitive market for the service, or established catalog or market prices for
    the services.

DARPA FAR Part 12 Contracts Awarded in 1997 and 1998
    FAR Part 12 Contract Awards. From April 1997 through August 1998,
    DARPA awarded six contracts, valued at $8.5 million, using FAR Part 12
    procedures for acquiring certain research where commercial industry
    involvement was of particular interest to DARPA. Attributes of the acquisitions
    were:

           •   Broad area announcements were used to solicit innovative ideas and
               research alternatives in specified technology areas.

           •   Firm-fixed price contracts were negotiated with milestones crafted
               around small, incremental technical activities.

           •   Contracts were incrementally funded, typically on an annual basis.

           •   Price reasonableness was established using price analysis (certified
               cost or pricing data were not required).

                                        5
       •   In some cases, transfers among corporate divisions were used by
           DARPA to “verify” market prices.

       •   While contracts did not require cost-sharing, the proposals included
           commitments of corporate funding.

       •   Commercial data rights clauses were used.

Under Secretary of Defense for Acquisition, Technology, and Logistics
Direction. On December 8, 1997, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued a memorandum to the Secretaries
of the Military Departments on “Fixed Price Contracts for Development with
Commercial Companies.” As background, the Under Secretary stated that as a
result of declining Defense budgets, the Department had seen consolidation of
the defense industry so that, in some instances, the Department had only two
competitors for DoD requirements. He stated that he believed that DoD could
increase healthy competition for DoD requirements by reaching out to creative
companies that normally do not compete for DoD contracts. To encourage
those companies to play a greater role in satisfying DoD needs, he asked the
Military Departments’ support for issuing several solicitations that would be
tailored to elicit proposals from those companies. Among the characteristics he
specified for the solicitations were:

       •   Efforts would be for development for which DoD has a valid
           requirement;

       •   Efforts must be of sufficiently low risk so offerors can realistically
           offer firm-fixed prices in a competitive fixed-price environment; and

       •   Efforts would be solicited on a competitive fixed price basis so there
           would be no need for submission of any cost or pricing data. When
           appropriate [emphasis added], the contracts should use the terms,
           conditions, and procedures under FAR Part 12.

To implement this direction, the Under Secretary asked each of the Military
Departments to nominate at least one development or major modification
requirement using a fixed-price contract. The complete text of the Under
Secretary memorandum is in Appendix B.

Director of Defense Procurement Assessment. On July 20, 1998, the Director
of Defense Procurement issued a memorandum to DARPA concerning the
justification for awarding four FAR Part 12 contracts in 1997 and 1998. Based
on the information that DARPA provided, the Director concluded that the
research and development services on three of the four contracts did not meet
the FAR definition of a commercial item.
For the three contracts, the DARPA rationale relied on the research and
development services in question being “traded substantially” between each
contractor’s research center and related product divisions. The Director stated
that such transactions fail to satisfy the requirement of established market prices
for specific tasks. The Director stated that when the words “or market” were

                                     6
added to the phrase “established catalog or market prices” in section 403(12)(F)
of title 41, United States Code, “Definitions,” the accompanying Conference
Report, which caused the addition of the phrase, defined market prices as
“current prices that are established in the course of ordinary trade between
buyers and sellers free to bargain and that can be substantiated from sources
independent of the offeror.” The Director concluded that the commercial item
definition requires that commercial services be of a type offered and sold in the
marketplace in substantial quantities based on established catalog or market
prices. Interdivisional transfers alone can not satisfy this definition.

For the fourth contract, the Director stated that she would need further
information to render an assessment as to whether the research and development
effort met the FAR commercial item definition. Specifically, the Director stated
that she would need information on the specific services procured and how
DARPA verified that the services were sold competitively, in substantial
quantities, in the commercial marketplace, and were based on established
market prices for specific tasks. Although additional dialogue between the
Office of the Director of Defense Procurement and DARPA occurred, the two
offices did not resolve the issue concerning whether the fourth contract met the
FAR commercial item definition. The complete text of the Director of Defense
Procurement memorandum is in Appendix C.

Defense Contract Audit Agency Assessment. The Defense Contract Audit
Agency developed a white paper in 1998 that addressed research and
development services provided solely to internal customers (that is, sister
divisions and affiliate companies). The Defense Contract Audit Agency’s
assessment as to whether interdivisional transfers meet the specific criteria of the
definition of commercial services follows:

       •   Offered and sold competitively. Companies would have difficulty
           meeting this criterion. The companies are not competing with
           outside companies when providing research and development solely
           within their organization.

       •   Substantial quantities in the commercial marketplace. The
           Defense Contract Audit Agency observed that the terms “general
           public” and “commercial marketplace” are used in the definition of
           commercial item in FAR Part 2. It further noted that earlier versions
           of FAR Part 15 defined the term “general public” to exclude “sales
           to affiliates of the offerors . . . .” While the term “commercial
           marketplace” is not defined in the FAR, it is reasonable to conclude
           that it includes to some degree, sales to the general public. Based on
           the previous FAR definition of general public, which has since been
           deleted, the Defense Contract Audit Agency concluded that
           interdivisional sales or sales to a company’s “internal customers” do
           not constitute sales in the commercial marketplace, or otherwise meet
           the FAR’s criteria for what constitutes a commercial item.

       •   Established catalog or market prices. Although no longer defined
           in FAR Part 15, “established catalog price” was previously defined
           as prices recorded in a catalog, price list, schedule, or other

                                     7
              verifiable and established records that are regularly maintained by the
              manufacturer or vendor and are published or otherwise available for
              customer inspection. “Established market price” was previously
              defined as a price that is established in the course of ordinary and
              usual trade between buyers and sellers free to bargain and that can be
              substantiated by data from sources independent of the offeror. (This
              is substantially the same definition contained in the Conference
              Committee Report when “market price” was added to the
              commercial services definition.)

              The Defense Contract Audit Agency advised that although it would
              be difficult for these companies to meet the previously defined
              criterion for market price, the companies could possibly meet the
              previously defined criterion for catalog price (although they most
              likely would not, as the catalog prices would not be published or
              otherwise available except to other Divisions within the same
              company).

    Accordingly, the Defense Contract Audit Agency concluded that companies are
    not selling research and development efforts that meet the definition of a
    commercial service as defined in FAR Part 12 when offering research and
    development services previously provided only to affiliates.

Logistics Management Institute Study
    In August 1999, the Logistics Management Institute (LMI) published a report on
    “Using FAR Part 12 to Buy Commercial Services in Applied Research.” The
    Office of the Deputy Under Secretary of Defense (Acquisition Reform) tasked
    LMI to conduct the study. In the report, LMI stated why it believed that DoD
    can and should use FAR Part 12 to acquire applied research from contractors.
    Our review and analysis of the LMI study showed it was superficial and lacked
    apparent legal basis for DoD use of FAR Part 12 contracts for applied research.
    A discussion of the LMI study and our assessment follows.

    Service of a Type. LMI stated that “whether it be product research or process
    research, the type of research found in the marketplace is generally similar to
    that contracted for by the Government.” LMI compared the definition of
    “applied research” included in the FAR to that used by the National Science
    Foundation to show that “the type of research found in the marketplace is
    similar to that contracted for by the Government.”

    The LMI comparison of FAR and National Science Foundation definitions of
    applied research and conclusion that Government and commercial sector
    research are identical are flawed. LMI failed to acknowledge that applied
    research conducted for DoD is for the specific purpose of fulfilling military
    needs. DoD conducts applied research to meet a military need that does not
    exist in the commercial market. Acquisition of such services does not constitute
    commercial services as defined by FAR Part 12. While such research may



                                        8
eventually have application in the commercial sector, the reason that DoD enters
into agreements with firms to conduct applied research is to meet one or more
needs of the military.

Sold Competitively in Substantial Quantities in the Commercial
Marketplace. LMI stated that commercial research and development totals
$113.5 billion annually in the U.S. economy. LMI stated that this figure is
nearly twice the federal expenditure and represents substantial quantities sold.
LMI stated that it could not distinguish precisely the portion of research that is
sold competitively. However, LMI believed a conservative estimate of research
and development sold competitively would be 10 percent or $11.4 billion of the
$113.5 billion sold annually.

The LMI conclusion regarding the extent of commercial research and
development is without basis. The LMI report does not explain or substantiate
its estimate of the amount of research and development sold competitively. It
does not even provide examples of companies that regularly provide such
services in the commercial marketplace.

The definition of commercial services requires that such services be offered and
sold competitively in substantial quantities in the commercial marketplace. The
definition presumes that there is a competitive marketplace for such services.
The mere fact that such services are offered by only one company does not
prove that such a marketplace exists, or that such services are sold competitively
in substantial quantities. One would assume that, if DoD required applied
research regarding certain applications to meet military needs, DoD should be
able to determine the existence of such services, as well as their prices and past
sales, based upon a review of trade journals and the marketing literature
published by various competitors which routinely offer and perform such
services. However, as DoD is acquiring applied research for specific military
applications, it is doubtful that market research would reveal that such services
are even offered, let alone priced, in the commercial marketplace.

This is not to say that DoD could not procure such research. In fact, DoD
procures much research from industry. It is simply not acquired as a
commercial service.

Based on Established Catalog or Market Prices. LMI asserted that prices
paid for research in the general marketplace are based on “market prices.”

The LMI conclusion is deficient because it does not provide examples where
applied research was of a type offered and sold competitively in the commercial
marketplace and is based on established catalog or market prices. Furthermore,
independently verifiable prices for the conduct of applied research from a
number of sources must be obtained to establish that market prices exist for such
services. Because of the nature of DoD’s applied research needs, market prices
related to research would have to be verified on a case-by-case basis to
determine if such services fit the definition of commercial services.

For Specific Tasks Performed. LMI stated that an argument could be made
that all basic research generally conforms to the same basic steps contained in

                                    9
    the scientific method of research: perform initial observation, gather
    information, title the project, state the purpose of the project, identify variables,
    make hypothesis, design experiments, do the experiments and record data,
    record observations, perform calculations, summarize results, and draw
    conclusions. LMI stated that while applied research is more oriented toward
    specific product development, it involves many of the same steps of basic
    research.

    Research is not frequently procured or paid for on the basis of repetitive steps
    such as designing an experiment and then conducting the experiment. An end
    product, such as a study, is the key deliverable. Alternately, research is
    acquired on a level-of-effort basis and procured on a cost-type basis, or, where
    the level of risk is determined to be low for the effort, procured on a firm-fixed-
    price basis. This is not the same as buying an item that is readily available in
    the commercial marketplace out of a catalog or that has an established market
    price.

Director of Defense Procurement and Office of General
  Counsel Comments on LMI Study
    On October 26, 1999, the Director of Defense Procurement, in coordination
    with the Office of the Deputy General Counsel (Acquisition and Logistics),
    issued a memorandum to the Under Secretary of Defense for Acquisition,
    Technology, and Logistics concerning the LMI Study. The memorandum stated
    that conducting research under FAR Part 12 requires a statutory change because
    the law states that commercial services must have “catalog or market prices for
    specific tasks.” The memorandum advised that while LMI may endorse the
    policy of using Part 12 for the conduct of applied research, DoD is without legal
    authority to pursue this alternative. The memorandum observes that the LMI
    interest appeared to be leveraging commercial research and development
    through whatever means were available and repeatedly mentioned attracting
    commercial firms that would not otherwise do business with the Government.
    The memorandum went on to state that this objective is already served by a
    variety of assistance and acquisition instruments. Specifically, grants,
    cooperative agreements, and other transactions have been tailored for this
    objective, and provide greater flexibility than FAR Part 12 contracts. The
    memorandum also stated that if it is decided that applied research, as a class,
    should be bought under FAR Par 12, that decision in all likelihood would
    severely limit the use of other transactions for research. The complete text of
    the memorandum is in Appendix D.

Rapid Improvement Team
    Charter. On March 20, 2000, the Deputy Under Secretary of Defense
    (Acquisition Reform) chartered a rapid improvement team (RIT) to identify a
    mutually acceptable approach for contracting for research and development
    between DoD and a contractor. The RIT was challenged to facilitate the
    involvement of commercial firms in the Government research and development

                                         10
process. The RIT was to place special emphasis on emerging or start up
companies by piloting commercial-like (fixed-price) research and development
relationships with the contractor and its technology venture companies
(spin-offs). The RIT was furnished the LMI Study as a basis for using
FAR Part 12 contracts for acquiring applied research. However, the RIT was
not provided the October 26, 1999, memorandum from the Director, Defense
Procurement.

Use of Fixed-price Contracts. The RIT identified methods that could be used
for fixed-price contracting for research and development efforts. For research
and development efforts that meet the definition of a commercial item in
FAR Part 2, the contractor could use FAR Part 12 for contracting with DoD
organizations. For research and development efforts not meeting the definition
for a commercial item, the contractor and its spin-offs could use the other
transaction authority, a fixed-price level-of-effort contract, or a time and
materials contract.

The contractor has performed research and development work with DoD for
decades. In FYs 1997 through 1999, the DD Form 350 (Individual Contracting
Action Report) database showed that DoD awarded the contractor 127 contract
actions valued at $93.3 million. Of the 127 contract actions, 118 actions,
valued at $92.9 million, were cost-based, which is 99.5 percent of the total
dollars awarded. In addition, the DoD awarded the contractor one grant valued
at $0.5 million, one cooperative agreement valued at $1.3 million, and the
contractor participated on two other transactions valued at $15.0 million during
the same 3-year period.

DARPA proposed that the RIT use a contractor applied research proposal that
was competitively selected against a broad area announcement as the pilot case.

On February 10, 2000, DARPA published a broad area announcement for
Human Identification at a Distance. The 1997 Defense Science Board’s
Summer Study Task Force Report, “DoD Responses to Transnational Threats,”
stated that United States facilities needed advanced technologies for enhanced
and extended perimeter security. The goal of the Human Identification at a
Distance program is to develop and demonstrate advanced surveillance methods
that will automatically detect, recognize, and identify individuals (cooperative,
noncooperative, and uncooperative) from a distance and alert operators to
potential security concerns. DARPA received 72 proposals. Included in the
72 proposals were 3 proposals for applied research efforts involving iris scans at
a distance. The technical evaluation committee determined that two of the iris
scan proposals were technically acceptable and decided to fund the contractor
proposal on “Iris Recognition at a Distance,” using the evaluation criteria in the
broad area announcement. Because of funding limitations, DARPA had the
contractor downscope the proposed contract statement of work from the
proposed $2.2 million to $1.0 million, and requested the Directorate of
Contracting at Fort Huachuca, Arizona, to negotiate and award a FAR Part 12
contract to the contractor.




                                    11
Use of FAR Part 12 for an Applied Research Effort
    Comparison of Applied Research Effort to FAR Part 12 Requirements. The
    contracting officer at Fort Huachuca inappropriately awarded, effective
    August 31, 2000, a FAR Part 12 “fixed-price (variable outcome) contract” to
    the contractor for an applied research effort that did not satisfy the definition of
    a commercial item. The contract was awarded over the objections of RIT team
    members from the Offices of the Defense Contract Audit Agency and the
    Inspector General, DoD. The RIT team member from the Office of the
    Director of Defense Procurement had not provided an official Director, Defense
    Procurement, position on the proposed approach to contracting with the
    contractor before hearing that the contracting officer had awarded the contract.
    Specifically, the contracting officer was not able to demonstrate that conduct of
    applied research was:

                •   Of a type offered and sold competitively. The contractor had
                    performed similar research in the same general scientific area on
                    five commercial contracts.
                                                     *

                           The contractor performed the research on a very discreet,
                    sole-source basis, and its payoff is obtaining rights to use the
                    research in other lines of business that will not compete with the
                    customer. The identity of the customers is proprietary. Customers
                    do not want competitors to know they contracted for research with
                    the contractor. Further, two of the five contractor contracts
                    reviewed were contracts with the contractor’s spin-off companies that
                    do not qualify as sales in the commercial marketplace. This
                    “market” is the antithesis of the spirit of the competitive marketplace
                    suggested in the commercial item definition by Congress. Further,
                    the contractor had not offered and sold competitively an applied
                    research effort in the commercial marketplace that was similar in
                    scope to the military unique research objective.
                •   Sold in substantial quantities in the commercial marketplace. The
                    contracting officer believed that the substantial quantity requirement
                    was met because the contractor had sold similar research in the same
                    general scientific area on the five commercial contracts. These
                    contracts were not concluded or sold in a commercial marketplace
                    but on a confidential sole source basis. Furthermore, the contractor
                    did not provide information on any commercial solicitations it had
                    competitively bid on to perform research. A sole-source and
                    unpublished sale does not satisfy the requirement for sales of
                    substantial quantities in the commercial marketplace. Further,
                    because of the military unique research objective in the subject
                    proposal statement of work, the contractor had not sold substantial
                    quantities of this type of research in the commercial marketplace.


    *
        Proprietary data deleted.



                                             12
       •   Based on established catalog or market prices for specific tasks
           performed. The contractor provided its five contracts in order to
           establish market prices and advised the RIT of the process used to
           determine costs to support the prices in its proposal. The contractor
           did not provide an established catalog for the proposed research
           effort. DARPA and the contracting officer believed that “market
           prices” were established by the five commercial contracts that were
           concluded in the ordinary course of business. These prices at best
           were negotiated on a sole-source, proprietary basis, without full and
           open competition. They cannot be verified through independent
           sources. Trade journals or similar market research information, to
           include competitive market prices for similar research, were not
           reviewed to establish catalog or market prices for the applied
           research effort. Unlike the Aalco case, there were no specific tasks
           with catalog or market prices for the applied research effort.

           The contractor’s price is nothing more than its price, not a market
           price. Similarly, its costs or proprietary data, which support its
           prices, do not constitute established catalog or market prices. The
           contractor’s internal hourly rates for employees selected to do the job
           at an estimated number of hours, which data are not disclosed
           publicly, do not provide a basis for determining market prices. The
           contractor’s proposed price is not a “market price” which can be
           substantiated by independent sources.

Fair and Reasonable Price. For cost and certain other contracts, contractors
are subject to a variety of statutes and regulations governing pricing and
negotiation. Absent competition, the Government’s primary means of ensuring
that proposed costs are realistic and allowable and that services are acquired at a
fair and reasonable price include contracting officers imposing the Cost
Accounting Standards, the FAR cost principles, and the Truth In Negotiations
Act requirements in contracts. The Government also reserves the right to audit
a contractor’s books, accounting procedures, and other data to ensure
compliance with these requirements, and to adjust a contract’s price for
noncompliance.

Contracting officers do not need to impose these requirements in contracts for
products and services that meet the definition of a commercial item in FAR
Part 2 when awarding contracts using FAR Part 12 procedures. The contractor
did provide the contracting officer a proposal that listed various cost elements,
including labor hours and rates, fringe benefits, overhead, consultant costs,
general and administrative expense, and fee (or profit), as well as a proposed
total price. The contractor subsequently lowered its proposed price. As part of
contract negotiation, the contractor offered the Government a price lower than
its typical commercial price.
The contracting officer’s price negotiation memorandum (PNM) includes a
section on price analysis. While the contractor had submitted various cost
elements in its proposal, the PNM does not reveal an analysis or comparison of
those elements to other contract or market prices. Rather, the contracting
officer reviewed a fully burdened rate for a research scientist and compared it

                                    13
with burdened rates for other research and development efforts awarded by Fort
Huachuca. Two rates for efforts with Hewlett Packard are specifically
mentioned in the PNM, including a data storage research effort. With respect to
material costs, the PNM observed that they were based on quotes, catalog
prices, and other data, and that the contractor would purchase the equipment on
a competitive basis. The PNM does not indicate that the data were verified or
otherwise compared to available contract, catalog, or market prices. Because of
a discount offered by the contractor of slightly more than half of its proposed
material costs, the PNM points out that the Government would not retain title to
equipment purchased by the contractor in performance of the contract.

The contracting officer said that Government technical personnel would make a
subjective determination regarding the contractor’s performance before
payments would be made based on the payment milestones specified in the
contract.

Using the above techniques may not provide assurance that the proposed prices
are fair and reasonable. While the contracting officer may be able to
independently verify the loaded labor rate against other efforts at Fort
Huachuca, this comparison is narrow in scope and appears to be unrelated to the
DARPA applied research effort. Furthermore, comparison of the fully loaded
labor rate may be meaningless as it is based on a number of apparently
unanalyzed and different cost elements ranging from costs for direct labor,
fringe benefits, overhead, material, general and administrative expense, and fee,
which may vary from company to company, and are dependent on the
requirements of different research efforts. The comparison was also apparently
limited to efforts awarded by the Fort Huachuca Directorate of Contracting.
One of the two Hewlett Packard efforts in the PNM pertained to a data storage
research project. The DARPA effort is being acquired on a “fixed-price
(variable outcome) contract” for an applied research project that has never been
performed before and, therefore, is unique. A comparison of loaded labor rates
with different requirements for other research projects for price reasonableness
purposes is problematic and may be unreliable. One unfortunate consequence of
determining that the DARPA effort is a commercial service is that it makes it
unlikely that DoD will have access to the contractor’s cost elements, such as its
proprietary internal labor, overhead, and profit rates, for determining price
reasonableness in future contracts.

The definition of commercial services in FAR Part 2 specifically excludes
services sold based on hourly rates without a fixed catalog or market price for a
specific service. The contracting officer’s price analysis is limited to burdened
hourly labor rates and does not discuss catalog or market prices for specific
research. The analysis appears to further support the conclusion that the applied
research in support of the DARPA effort does not conform to the FAR
definition and thus is not a commercial service.
The contractor agreed to participate in the RIT because it wanted to address
barriers in cost-reimbursable type contracts that make Government business less
appealing than commercial business for high-technology companies. The
contractor identified those barriers to include:


                                   14
            •   the burdens and penalties of the Truth In Negotiation Act
                requirements used to determine fair and reasonable prices on cost
                type contracts;

            •   Bayh-Dole Act requirements on intellectual property and technical
                data rights requirements;

            •   FAR cost principles used to determine allowable costs on cost-type
                contracts; and

            •   FAR Part 15, “Contracting by Negotiation,” fee (profit) limitations
                of not to exceed 15 percent for cost type research and development
                contracts. The contractor stated that it would like to earn the same
                 * fee on its Government research contracts that it earns on its
                commercial research contracts.

From its proposals on cost-type contracts, the contractor voluntarily deleted as
unallowable about * from overhead costs and about * from general and
administrative costs on its business cost base in 1998. The statutory and
regulatory policies regarding unallowable costs are based, in part, on the
recognition that the DoD and the taxpayer receive no benefits from unallowable
costs the contractor and other contractors incur.

The contractor proposed an average fee of * in FY 1999 for its DoD
cost-type contracts. After deducting this from the combined cost of the
contractor’s profit and potentially unallowable costs on this commercial fixed-
price type contract, the use of FAR Part 12 procedures may in the future result
in DoD receiving * less research.

For this contract, the contractor offered DoD a $103,423 (9.4 percent) discount
from the proposed amount of $1,103,425. This brought the price to
$1,000,002. Since the discount was offered, the contracting officer stated in the
price negotiation memorandum that the Government would consider this as a
reduction in the contract price, and, therefore, would not retain title to the
equipment purchased during the performance of the effort. The contractor will
purchase about $197,000 of scientific and technical equipment. Under a
cost-type contract, the Government would obtain title to the equipment. On this
contract, the contractor retains title to the equipment and can charge the DoD
for use of the equipment on future contracts. The contracting officer believes
the $103,423 discount was worth the cost of the equipment. Because the
contractor has been afforded the opportunity to include unallowable costs, and a
higher fee than in cost contracts for research and development efforts, we
believe the contracting officer would have been able to negotiate a better price
had she used a cost-type contract for this effort.




*
    Proprietary data deleted.



                                        15
“Firm-Fixed-Price (Variable Outcome) Type Contract.” FAR Part 16,
“Types of Contracts,” states that a firm-fixed-price contract results in a price
that is not subject to any adjustment on the basis of the contractor’s cost
experience in performing the contract. Implicit in a firm-fixed-price contract is
the understanding that for the firm-fixed-price, the contractor will deliver what
the Government contracted for, that is, a firm-fixed-price that the Government
will pay for a fixed outcome. This contract type places the contractor at
maximum risk and responsibility for all costs and resulting profit or loss.
Further, the contracting officer at Fort Huachuca used a “firm-fixed-price
(variable outcome) contract,” which is a type of contract not defined in FAR
Subpart 16.2, “Fixed-Price Contracts.”




                                             *




After analyzing the fixed-price contract for this research effort and the
contractor’s commercial contracts, it is easy to understand why other contracting
officers chose cost-plus-fixed-fee contracts for 99.5 percent of the research
efforts with the contractor. They chose cost-plus-fixed-fee contracts because
that was the appropriate contract type for most research efforts.

Contracting Officer Basis for Using FAR Part 12. The contracting office did
not perform the required market research to determine whether the contractor’s
contract would qualify as a commercial service. The contracting officer
provided the following rationale for why she believed the use of a FAR Part 12
contract-type was appropriate:

            •   Of a type offered and sold competitively. The contracting officer
                referred to the five proprietary commercial contracts that the
                contractor provided for review to support her determination that the
                proposed research effort was of a type offered and sold
                competitively. As indicated earlier, use of contractor proprietary
                commercial contracts that were not disclosed publicly and were
                negotiated on a sole source basis does not provide a basis for a
                determination that the research is of a type offered and sold
                competitively. The contracting officer should perform market
                research and be able to show that the research is readily available
                from at least two, and preferably several, companies.

*
    Proprietary data deleted.



                                        16
       •   Sold in substantial quantities in the commercial marketplace.
           The contracting officer cited the five proprietary commercial
           contracts that the contractor provided for review as the basis for
           making her determination that the contractor had sold substantial
           quantities of similar research in the commercial marketplace. The
           sole-source, private, and unpublished sales do not satisfy the
           requirement for sales of substantial quantities in the commercial
           marketplace. Further, because of the research objective in the
           subject proposal statement of work, the contractor had not sold
           substantial quantities of this type of research in the commercial
           marketplace.

       •   Based on established catalog or market prices for specific tasks
           performed. The contracting officer only used the broad area
           announcement as market research, and otherwise relied on the
           contractor’s five proprietary commercial contracts to determine that
           the applied research constituted a commercial item. Her
           determination and findings in support of her commercial item
           determination do not indicate that she conducted a review of catalog
           or market prices for applied research generally, or for the
           DARPA-specific military application. Consequently, her decision
           was not based on any publicly available information to independently
           establish that applied research is commonly purchased in the
           competitive market based on established catalog or market prices, or
           that there are established prices for the DARPA-specific applications.
           At best, the determination was based on the proprietary cost and
           pricing data furnished by the contractor. Such data, however, do not
           establish catalog or market prices, but rather, only the contractor’s
           proposed price and past costs. Moreover, those prices and cost
           elements have not been publicly disclosed or the result of competition
           in the commercial marketplace. The contractor stated that, by
           mutual agreement, the identity of its customers is usually kept
           confidential because the existence of the customers’ research and
           development efforts is proprietary and market sensitive information.
           As suggested in the Conference Committee report and in the
           Environcare case discussed earlier, market prices should be based on
           sources that are independent of the offeror. The determination and
           findings fail to identify any other commercial companies or trade
           literature which might independently establish market prices for the
           specific tasks to be performed.

In summary, the contracting officer’s determination that it was permissible to
use a FAR Part 12 contract type to contract for the contractor’s applied research
effort was not appropriate. Specifically, the contracting officer did not
demonstrate that the applied research effort met the FAR Part 2 definition of a
commercial service; that is, the services are of a type offered and sold
competitively in substantial quantities in the commercial marketplace and are
based on established catalog or market prices for specific tasks performed under
standard commercial terms and conditions. Also, the contracting officer used a
contract type not authorized for use under FAR Part 12. Furthermore, based on
the information that the contracting officer provided, it would have been more

                                   17
    appropriate to have chosen another type of contract, such as time-and-materials
    or level-of-effort cost-type contract, to acquire the contractor’s applied research
    effort.

Effect of Using FAR Part 12
    The inappropriate use of FAR Part 12 procedures and firm-fixed-price contracts
    for applied research can have numerous effects.

           •   Only firm-fixed-price type contracts may be awarded. Contractors
               are required to assume a disproportionate risk if experiments or tests
               need to be redone or modified in connection with applied research
               projects. These possibilities exist given that each effort is unique
               and the various experiments or tests may provide unexpected results
               or not provide adequate data.
           •   Use of a firm-fixed-price type of contract is likely to result in the
               DoD getting less research for its research and development dollars.
           •   Contractors can include in their price costs that are not allowable in
               the FAR.
           •   The Government deprives itself of audit access to contractor records
               that would assist the contracting officer in determining whether
               proposed prices are fair and reasonable, particularly for future
               applied research contracts, and for verifying that the
               Government received the services for which it paid.
           •   Contracting officers may not be able to independently verify the
               reasonableness of proposed prices because of the unique nature of
               applied research for military applications.
           •   Contractors can earn more than the maximum 15 percent fee
               normally allowed for research and development and DoD would not
               be aware of the amount of the contractor’s profit.
           •   Contractors do not have to furnish cost and pricing data. DoD must
               rely on other pricing information in order to determine if contractor
               prices are fair and reasonable. This is a difficult task to perform,
               particularly when each applied research effort is unique.
           •   The Government’s rights to technical data may be unnecessarily
               restricted. FAR Part 12 states that the Government will only require
               that data customarily provided to the public. Where research is
               Government funded, the Government may have an interest in
               obtaining greater rights.

Other Alternatives for Performing Research
    For applied research efforts that do not satisfy the definition of a commercial
    item in FAR Part 2, it would be more appropriate for contracting officers to use
    other alternatives for engaging in applied research. Specifically, DoD has

                                         18
     multiple acceptable strategies for engaging in applied research that include cost
     and fixed-price contracts under FAR Part 15, “Contracting by Negotiation,”
     cooperative agreements, grants, and other transactions for research as discussed
     earlier. To attract new contractors that are averse to doing business with DoD,
     contracting officers can use other transactions that are not subject to the FAR
     and most procurement statutes.

Improvements in Procurement of Services
     Section 821 of the FY 2001 National Defense Authorization Act provided the
     Department an incentive to improve contracting for services. The Section
     established a preference for the use of performance-based contracts for services.
     As an incentive to do more performance-based contracting, the Section allows
     DoD to use FAR Part 12 contracting procedures for service contracts, even if
     the service being acquired does not meet the definition of “commercial
     services,” if:

            •   The contract or task order is valued at $5 million or less;

            •   The contract or task order sets forth specifically each task to be
                performed and, for each task:

                   -   defines the task in measurable, mission-related items;

                   -   identifies the specific end products or output to be achieved;
                       and

                   -   contains a firm-fixed price; and

            •   The source of the services provides similar services to the general
                public under terms and conditions similar to those offered to the
                Federal Government.

     Personnel in the Office of the Deputy Under Secretary of Defense (Acquisition
     Reform) have advocated use of the Section 821 authority for research and
     development contracting because it would not require a determination that the
     services are commercial. The provisions of the Section would not apply to a
     “firm-fixed-price (variable outcome) contract” like the research contract with
     the contractor because most research and development efforts do not meet the
     requirement for specific end products or outputs. Applied research by its very
     nature of pursuing applications for something that does not exist in the
     marketplace generally cannot meet the requirements of the Section.

Congressional Intent for Acquiring Items
     The legislative history for the Federal Acquisition Streamlining Act emphasizes
     that the use of commercial item acquisitions will lower the Government’s cost of
     doing business. This is accomplished by an increasing reliance on the use of the
     commercial marketplace for obtaining commercially developed items and

                                         19
    adopting commercial practices. Senator Carl M. Levin’s discussion with respect
    to nondevelopmental items is a further example of the congressional impetus to
    support commercial item acquisitions. He stated that:

                  It only makes sense that products that are already in use . . .
                  are less expensive and easier to purchase than government-
                  unique items. The acquisition . . . can lower initial purchase
                  costs by reducing or eliminating the need for research and
                  development. Acquisition lead-time can be reduced . . . .
                  Because the product is already developed and has been
                  shown to work, the need for detailed design specifications
                  and extensive testing is also reduced . . . .

    The House included commercial services in the definition of commercial items
    and recognized that such services are “increasingly developed, marketed and
    sold to the general public as a stand-alone commercial product . . . .” (House
    Report No. 103-545, June 17, 1994 [to accompany HR 2238])

    The acquisition of applied research does not conform to the congressional intent
    regarding commercial items. Such research is devoted to applications which are
    usually unique to the military and are unknown or untested. There is no
    “product” that already exists or is sold to the general public as a “stand-alone”
    service. If anything, the contractor’s experience, for example, is based on
    discrete sales that are shielded insofar as possible from public scrutiny.
    Moreover, the legislative history appears to be directed towards the acquisitions
    of products that result from research, and to stand-alone services, not the
    research services that develop products.

    The benefits of using FAR Part 12 procedures include obtaining access to
    readily available commercial products that have been competitively sold in the
    commercial marketplace. These products or services have already been
    developed. The Government can rely on the competitive marketplace to a large
    extent in ensuring that it obtains fair prices for such goods and services. These
    conditions do not exist with respect to the acquisition of applied research.

Conclusion
    DoD should not expend further effort trying to engage in applied research using
    FAR Part 12. The conduct of applied research does not generally fall under the
    statutory definition of commercial services. Review of available information
    shows that use of FAR Part 12 procedures to purchase applied research may
    also result in DoD getting less research for each dollar expended. Further,
    Congress has granted DoD flexibility to waive the Cost Accounting Standards
    and Truth In Negotiations Act requirements for contracts and to use other
    transactions that are not subject to the FAR and procurement statutes to attract
    and perform research with nontraditional DoD contractors. Further, the Office
    of the Under Secretary of Defense for Acquisition, Technology, and Logistics,
    approved a report that advocated, as a price-based acquisition tool, the use of
    “fixed-price (variable outcome) contracts” as the preferred approach for science
    and technology efforts. However, a number of the DoD Components disagreed

                                           20
     with the approach and considered it either as a return to the 1980’s approach of
     using fixed-price contracts for research and development or a difficult concept
     to implement. If the Under Secretary of Defense for Acquisition, Technology,
     and Logistics decides to encourage the use of a new type of contract for research
     and development under which a fixed amount of funding is established for the
     contractor to provide its best efforts toward achieving a desired outcome, such
     as a “firm-fixed-price (variable outcome) contract” used by Fort Huachuca, then
     the new contract type needs to be established in the FAR, along with criteria for
     and limitations on its use.

Management Comments on the Finding
     The Director, Defense Procurement, provided clarifying comments and
     recommended changes to selected statements in the report, which we made, as
     deemed appropriate. The complete text of those comments is in the
     Management Comments section of this report.

Deputy General Counsel (Acquisition and Logistics)
  Comments on the Use of FAR Part 12
     In light of the draft report, the Deputy General Counsel (Acquisition and
     Logistics), Office of the General Counsel, issued a memorandum, “Use of FAR
     Part 12 to Buy Research and Development,” January 11, 2001, to the Director,
     Defense Procurement, advising that the use of commercial item contracts for
     applied research is inappropriate. He stated that, even though his office
     supports the use of FAR Part 12 for research-related services that meet the
     definition of commercial services, the conduct of applied research is not a
     commercial service because the primary objective of research and development
     is to advance the state of scientific knowledge that does not exist in the
     marketplace. Therefore, he concluded that applied research is not suitable for
     acquisition under FAR Part 12.

Recommendations, Management Comments, and Evaluation
  Response
     Revised Recommendation. In Recommendation 2. of the draft report, we
     referred to a “firm-fixed-price (variable outcome) contract” as an example of
     the type of new contract that DoD should establish in the Federal Acquisition
     Regulation if it decides to encourage the use of a new type of contract for
     research and development under which a fixed amount of funding is established
     for the contractor to provide its best efforts toward achieving a desired outcome.
     In response to the draft report, the Director, Defense Procurement, objected to
     the reference to the “firm-fixed-price (variable outcome) contract” in the
     recommendation. The Director stated that, although the label has been used, the
     label is a misnomer, and should not be perpetuated by being included in a
     recommendation that becomes a tasking. She stated that the concept is similar
     to that of a cost-reimbursement completion type of contract, except that it is the

                                         21
deliverable, rather than the amount to be paid, that is subject to adjustment. In
firm-fixed-price contracts, both the price and the deliverable are “fixed.”
Consequently, we revised the recommendation.

We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics:

       1. Provide guidance to the Rapid Improvement Team and DoD
contracting officers to:

             a. Not use a commercial item contract (Federal Acquisition
Regulation Part 12, “Acquisition of Commercial Items”) to acquire applied
research.
Management Comments. The Director, Defense Procurement, concurred,
stating that the Under Secretary of Defense for Acquisition, Technology, and
Logistics will provide guidance on the appropriate contract types to use for
applied research. The complete text is in the Management Comments section of
this report.

Evaluation Response. The Director’s comments did not address when the
Under Secretary of Defense for Acquisition, Technology, and Logistics would
provide RIT team members and DoD contracting officers with guidance
concerning the inappropriate use of FAR Part 12 contracts to buy applied
research. As of the date of this report, the RIT team members were still under
the impression that the use of FAR Part 12 contracts for applied research was
acceptable to the Under Secretary of Defense for Acquisition, Technology, and
Logistics. Further, the Under Secretary’s website still contains information
about the RIT, which promotes the use of FAR Part 12 contracts for applied
research. Consequently, we request that the Under Secretary provide additional
comments addressing when his office will:

       •   provide guidance to RIT team members and DoD contracting officers
           concerning the inappropriate use of FAR Part 12 contracts to buy
           applied research and

       •   remove from the Under Secretary’s website information about the
           RIT that promotes the use of FAR Part 12 contracts for applied
           research.

             b. Clarify that market research, especially verification of
market prices from sources independent of the offeror, is a key factor in
determining whether services qualify as commercial items.

Management Comments. The Director, Defense Procurement, concurred with
the recommendation.
Evaluation Response. The Director’s comments did not provide an estimated
date as to when the Under Secretary of Defense for Acquisition, Technology,
and Logistics would issue the recommended guidance. Therefore, we request


                                    22
that the Under Secretary provide additional comments addressing when his
office will issue clarifying guidance discussing market research as a key factor
in determining whether services qualify as commercial items.

        2. Establish in the Federal Acquisition Regulation any new type of
contract for research and development, along with criteria for and
limitations on its use, before encouraging its use.

Management Comments. The Director, Defense Procurement, agreed in
principle with the recommendation. The Director stated that DoD should
explore the use of a new contract type for research and development under
which DoD establishes a fixed amount of funding for the contractor to provide
its best efforts towards achieving a desired outcome. The Director added that, if
the new contract type has utility, it should be established in the Federal
Acquisition Regulation, along with criteria for and limitations on its use.

Evaluation Response. We agree with the Director that the use of the term
“firm-fixed-price (variable outcome) contract” is a misnomer and should not be
perpetuated. However, on November 29, 2000, the Under Secretary of Defense
for Acquisition, Technology, and Logistics issued a memorandum about
price-based acquisition. The memorandum promoted the use of “fixed-price
(variable outcome) contracts” for research and is still available to the acquisition
community and the public at the Under Secretary’s website. Therefore, we
request that the Under Secretary provide additional comments advising when his
office will remove from his website documents promoting the use of
“fixed-price (variable outcome) contracts,” a contract type that is a misnomer.




                                     23
Appendix A. Evaluation Process

Scope and Methodology
    We conducted this evaluation from April 2000 through October 2000 and
    reviewed documentation dated from July 1998. To accomplish the evaluation
    objective, we:

          •   Participated on Rapid Improvement Team offsite with Government
              acquisition and regulatory officials and contractor officials on
              April 19-21, 2000, and July 26, 2000;

          •   Reviewed the broad area announcement in the Commerce Business
              Daily that was related to the DARPA pilot applied research project;

          •   Reviewed requirements in section 403 of title 41, United States
              Code, “Definitions,” and the FAR concerning authority for using
              FAR Part 12, “Acquisition of Commercial Items;”

          •   Reviewed the Federal Acquisition Streamlining Act of 1994 and its
              legislative history;

          •   Reviewed other requirements in the FAR to include FAR Part 15,
              “Contracting by Negotiation,” FAR Part 16, “Types of Contracts,”
              and FAR Part 35, “Research and Development Contracting;”

          •   Reviewed DoD Regulation 3210.6-R, “DoD Grant and Agreement
              Regulations,” April 13, 1998, concerning the use of grants,
              cooperative agreements, and other transactions for engaging in
              applied research;

          •   Reviewed Logistics Management Institute study on “Using FAR
              Part 12 to Buy Commercial Services in Applied Research,” August
              1999;

          •   Reviewed Conference Report 104-450 that accompanies the National
              Defense Authorization Act for FY 1996, Conference Report 106-945
              that accompanies the National Defense Authorization Act for
              FY 2001, and Section 821 of the Act;

          •   Reviewed Aalco Forwarding, Inc. et seq., B-277241.8.9,
              October 21, 1997, 97-2 CPD 110; and Environcare of Utah, Inc. v.
              United States, 44 Court of Federal Claims 474, June 11, 1999;

          •   Reviewed Director, Defense Procurement, memorandum, “Fixed
              Price Contracts for Development with Commercial Companies,”
              July 20, 1998; and Director, Defense Procurement, memorandum,
              “LMI Report on Using FAR Part 12 to Buy Research,” October 26,
              1999;

                                      24
           •   Reviewed the conference report, “Enactment of Provisions of H.R.
               [House of Representatives] 5408, the Floyd D. Spence National
               Defense Authorization Act for Fiscal Year 2001,” October 6, 2000;
               and

           •   Met with DARPA and Army contracting officials to review
               documentation to determine whether the contractor’s applied research
               proposal satisfied the definition of a commercial service in FAR
               Part 2, “Definitions of Words and Terms.”

    Evaluation Standards. We conducted this program evaluation in accordance
    with standards issued by the Inspector General, DoD.

    Use of Computer-Processed Data. We did not rely on computer-processed
    data to develop conclusions on this evaluation.

    Contacts During the Evaluation. We visited or contacted individuals and
    organizations within DoD and the contractor. Further details are available on
    request.

    DoD-Wide Corporate Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate level goal.

           FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-2)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Weapon Systems Acquisition high-risk area.

Prior Coverage
    During the last 5 years, the General Accounting Office; the Inspector General,
    DoD; and the Military Department audit agencies have not issued reports
    specifically addressing the evaluation objective.




                                       25
Appendix B. Under Secretary of Defense for
            Acquisition and Technology,
            Memorandum of December 8, 1997




                    26
27
Appendix C. Director, Defense Procurement,
            Memorandum of July 20, 1998




                      28
29
Appendix D. Director, Defense Procurement,
            Memorandum of October 26, 1999




                    30
31
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Acquisition Reform)
  Director, Defense Procurement
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Advanced Research Projects Agency
Director, Defense Contract Audit Agency

Non-Defense Federal Organizations
Office of Federal Procurement Policy
Office of Management and Budget




                                         32
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       33
___________________________________________________________________


Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                             35
___________________________________________________________________




                             36
___________________________________________________________________



                                                                      Final Report
                                                                       Reference




                                                                      Revised




                                                                      Revised




                                                                      Page ii,
                                                                      Revised




                                                                      Page 2,
                                                                      Revised




                             37
                ___________________________________________________________________



Final Report
 Reference




Page 2,
Revised




Page 12,
Revised




Page 15.
*
  Proprietary
data deleted.



Page 15,
Revised




                                             38
___________________________________________________________________



                                                                      Final Report
                                                                       Reference




                                                                      Page 18,
                                                                      Revised




                                                                      Page 19,
                                                                      Revised




                                                                      Page 19,
                                                                      Revised



                                                                      Pages 2 and
                                                                      20, Revised




                                                                      Page 20,
                                                                      Revised




                             39
Evaluation Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report.

     Thomas F. Gimble
     John E. Meling
     Jack D. Snider
     Jacqueline N. Pugh
     Krista S. Gordon
